      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                         Washington, D.C. 20201




February 24, 2011

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /George M. Reeb/
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Review of Family Planning Services Claimed by Washington State During the
               Period October 1, 2005, Through September 30, 2008 (A-09-09-00049)


Attached, for your information, is an advance copy of our final report on family planning
services claimed by Washington State. We will issue this report to the Washington State
Department of Social and Health Services within 5 business days.

If you have any questions or comments about this report, please do not hesitate to contact me at
(410) 786-7104 or through email at George.Reeb@oig.hhs.gov or Lori A. Ahlstrand, Regional
Inspector General for Audit Services, Region IX, at (415) 437-8360 or through email at
Lori.Ahlstrand@oig.hhs.gov. Please refer to report number A-09-09-00049.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103

February 28, 2011

Report Number: A-09-09-00049

Mr. Doug Porter
Medicaid Director
Administrator, Health Care Authority
Department of Social and Health Services
676 Woodland Square Loop, SE
P.O. Box 42700
Olympia, WA 98504-2700

Dear Mr. Porter:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Family Planning Services Claimed by Washington
State During the Period October 1, 2005, Through September 30, 2008. We will forward a copy
of this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or contact
Janet Tursich, Audit Manager, at (206) 615-2063 or through email at Janet.Tursich@oig.hhs.gov.
Please refer to report number A-09-09-00049 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Doug Porter


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




          REVIEW OF
  FAMILY PLANNING SERVICES
CLAIMED BY WASHINGTON STATE
     DURING THE PERIOD
  OCTOBER 1, 2005, THROUGH
     SEPTEMBER 30, 2008




                      Daniel R. Levinson
                       Inspector General

                        February 2011
                        A-09-09-00049
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. Section 1115 of the Act authorizes demonstration
projects to assist in promoting the objectives of the Medicaid program.

Pursuant to section 1905(a)(4)(C) of the Act, States are required to furnish family planning
services and supplies to individuals of childbearing age who are eligible under the State plan and
desire such services and supplies. Section 1903(a)(5) of the Act and Federal regulations
(42 CFR § 433.10(c)(1)) authorize Federal reimbursement for family planning services and
supplies at the enhanced Federal medical assistance percentage (FMAP) of 90 percent
(90-percent rate). Family planning services prevent or delay pregnancy or otherwise control
family size.

In Washington State, the Department of Social and Health Services (the State agency)
administers the Medicaid program. The State agency provides family planning services and
supplies under Medicaid and a family planning demonstration project (Take Charge). Within
Medicaid, family planning services are provided under the Reproductive Health Services and
Family Planning Only programs.

Pursuant to the Washington Administrative Code, for the Family Planning Only and Take
Charge programs, a family planning service must have a primary focus and diagnosis of family
planning. State agency guidance limits reimbursement to those services that are identified with
one of the approved primary diagnosis codes for family planning. Also, for family planning
prescription drugs (including supplies), State agency guidance requires that the claim contain one
of the approved therapeutic classification codes. Under the Reproductive Health Services
program, family planning services are defined as medically safe and effective medical care,
educational services, and/or contraceptives that enable individuals to plan and space the number
of children and avoid unintended pregnancies.

The State agency claimed approximately $110 million ($99 million Federal share) for family
planning services and supplies provided to Medicaid beneficiaries during the period
October 1, 2005, through September 30, 2008. We reviewed $19 million (Federal share) of
claims for family planning services and supplies that did not contain approved diagnosis codes or
approved therapeutic classification codes.




                                                i
OBJECTIVE

Our objective was to determine whether the State agency claimed Federal reimbursement at the
90-percent rate for family planning services and supplies in accordance with Federal and State
requirements.

SUMMARY OF FINDINGS

The State agency did not always claim Federal reimbursement at the 90-percent rate for family
planning services and supplies in accordance with Federal and State requirements. Specifically,
the State agency claimed $18,727,441 (Federal share) of medical services and supplies that were
not related to family planning. Contrary to State requirements, the claims for services did not
contain approved primary diagnosis codes, and the claims for supplies did not contain approved
therapeutic classification codes. By calculating the difference between what the State agency
claimed and what it should have claimed, we determined that the State agency was overpaid
$8,458,169 (Federal share).

This overpayment occurred because the State agency’s Medicaid Management Information
System (MMIS) controls did not properly distinguish claims eligible for reimbursement at the
90-percent rate from claims eligible for reimbursement at the regular FMAP rate. In July 2007,
the State agency changed the MMIS controls to properly identify these claims.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $8,458,169 to the Federal Government and

   •   identify and refund any overpayments for family planning claims before October 1, 2005,
       that did not contain approved primary diagnosis or therapeutic classification codes
       identifying the claims as eligible for reimbursement at the 90-percent rate.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In its comments on our draft report, the State agency concurred with our findings and our first
recommendation. Regarding our second recommendation, the State agency said that because it
had implemented a new MMIS in May 2010, it was unable to review medical claims submitted
before December 2005 or pharmacy claims submitted before April 2006. The State agency’s
comments are included in their entirety as Appendix B.

The State agency should work with CMS to resolve the issue of overpayments for medical
claims submitted before December 2005 and pharmacy claims submitted before April 2006.
Even though the detailed information is no longer available, CMS may want to use alternative
methods, such as estimations, to determine the amount that the State agency should refund.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION.................................................................................................................... 1

          BACKGROUND ........................................................................................................... 1
              Medicaid Program .............................................................................................. 1
              Medicaid Coverage of Family Planning Services .............................................. 1
              Washington State’s Medicaid Program ............................................................. 1
              Washington State’s Medicaid Family Planning Programs ................................ 2
              State Requirements for Family Planning Programs ........................................... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................... 3
               Objective ............................................................................................................ 3
               Scope .................................................................................................................. 3
               Methodology ...................................................................................................... 4

FINDINGS AND RECOMMENDATIONS .......................................................................... 4

          FEDERAL REQUIREMENTS ...................................................................................... 5

          STATE REQUIREMENTS ........................................................................................... 5

          SERVICES AND SUPPLIES NOT RELATED TO FAMILY PLANNING ............... 5
               Primary Diagnosis Codes Not Eligible for Reimbursement
                 at the 90-Percent Rate ..................................................................................... 6
               Therapeutic Classification Codes Not Eligible for Reimbursement
                 at the 90-Percent Rate ..................................................................................... 6

          CAUSE OF THE OVERPAYMENTS .......................................................................... 7

          RECOMMENDATIONS ............................................................................................... 7

          STATE AGENCY COMMENTS AND
            OFFICE OF INSPECTOR GENERAL RESPONSE .............................................. 7

APPENDIXES

          A: EXAMPLES OF UNAPPROVED PRIMARY DIAGNOSIS AND THERAPEUTIC
              CLASSIFICATION CODES

          B: DEPARTMENT OF SOCIAL AND HEALTH SERVICES COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. Section 1115 of the Act authorizes demonstration
projects to assist in promoting the objectives of the Medicaid program.

Medicaid Coverage of Family Planning Services

Pursuant to section 1905(a)(4)(C) of the Act, States are required to furnish family planning
services and supplies to individuals of childbearing age who are eligible under the State plan and
desire such services and supplies. Section 1903(a)(5) of the Act and Federal regulations
(42 CFR § 433.10(c)(1)) authorize Federal reimbursement for family planning services and
supplies at the enhanced Federal medical assistance percentage (FMAP) of 90 percent
(90-percent rate).

Section 4270 of the CMS State Medicaid Manual (the Manual) states that family planning
services include those that prevent or delay pregnancy or otherwise control family size and may
also include infertility treatments. The Manual indicates that States are free to determine which
services and supplies will be covered as long as those services and supplies are sufficient in
amount, duration, and scope to reasonably achieve their purpose. However, only supplies and
services clearly furnished for family planning purposes may be claimed for Federal
reimbursement at the 90-percent rate.

Washington State’s Medicaid Program

In Washington State, the Department of Social and Health Services (the State agency)
administers the Medicaid program. Within the State agency, the Health and Recovery Services
Administration administers the family planning programs.

The State agency uses the Medicaid Management Information System (MMIS), a computerized
payment and information reporting system, to process Medicaid claims for payment by the
Agency Financial Reporting System. The expenditures related to the claims are reported on
Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical Assistance
Program, for Federal reimbursement.

The Federal share of the Medicaid program is determined by the FMAP. During our audit
period, the FMAP in Washington State was 50 percent (October 1, 2005, through



                                                1
September 30, 2006), 50.12 percent (October 1, 2006, through September 30, 2007), and
51.52 percent (October 1, 2007, through September 30, 2008).

Washington State’s Medicaid Family Planning Programs

The State agency provides family planning services and supplies under Medicaid and a family
planning demonstration project (Take Charge).

Medicaid: Reproductive Health Services and Family Planning Only Programs

Within Medicaid, the State agency offers family planning services through the Reproductive
Health Services and Family Planning Only programs. Pursuant to WAC § 388-532-001, the
purpose of the Reproductive Health Services program is to provide services that assist clients to
avoid illness, disease, and disability related to reproductive health; provide related and
appropriate medically necessary care when needed; and assist clients to make informed decisions
about using medically safe and effective methods of family planning. Pursuant to
WAC § 388-532-050, family planning services under the Reproductive Health Services program
are defined as medically safe and effective medical care, educational services, and/or
contraceptives that enable individuals to plan and space the number of children and avoid
unintended pregnancies. Pursuant to WAC § 388-532-500, the purpose of the Family Planning
Only program is to provide family planning services at the end of pregnancy to women who
received medical assistance benefits during pregnancy. The primary goal of the Family Planning
Only program is to prevent an unintended subsequent pregnancy.

Take Charge Program

Pursuant to CMS’s award letter to the State agency for its section 1115 Family Planning
Demonstration waiver and WAC § 388-532-720, individuals eligible for the Take Charge
program are not otherwise eligible for Medicaid. Under the special terms and conditions of the
Take Charge demonstration project, family planning services and supplies whose primary
purpose is family planning are eligible for reimbursement at the 90-percent rate. These special
terms and conditions also state that the 90-percent rate is not available for any services whose
primary purpose is not family planning even if family planning clinics or providers furnish those
services. Pursuant to WAC § 388-532-710, the Take Charge program is defined as the State’s
demonstration and research program approved by the Federal Government under a Medicaid
program waiver to provide family planning services.

State Requirements for Family Planning Programs

For the Reproductive Health Services program, WAC § 388-532-120 allows an annual
comprehensive family planning preventive medical visit billable only by a Take Charge
provider. Other allowable family planning services include sterilization and prescription drugs.
State agency guidance has specific requirements for these services.

For the Family Planning Only and Take Charge programs, the State agency will not cover
medical services unless the services are performed in relation to a primary focus and diagnosis of



                                                2
family planning (WAC §§ 388-532-540 and 388-532-750, respectively). Pursuant to
WAC § 388-502-0100, to receive payment, the provider must bill according to department rules
and billing instructions. 1 State billing instructions limit reimbursement to those services that are
identified with one of the approved primary diagnosis codes for family planning. 2 These
diagnosis codes must be within the V25 diagnosis code series. The International Classification
of Diseases 3 defines the V25 diagnosis code series as contraceptive management. For family
planning prescription drugs (including supplies), State agency guidance requires that the claim
contain one of the approved therapeutic classification codes.

For the Reproductive Health Services program, State agency officials informed us that the
requirement to identify family planning services with a V25 diagnosis code or therapeutic
classification code also applies.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Federal reimbursement at the
90-percent rate for family planning services and supplies in accordance with Federal and State
requirements.

Scope

The State agency claimed $110,180,570 ($99,162,513 Federal share) for family planning
services and prescription drugs (including supplies) provided to Medicaid beneficiaries during
our audit period (October 1, 2005, through September 30, 2008). These claims consisted of
family planning services totaling $95,115,180 (Federal share) and prescription drugs and
supplies totaling $4,047,333 (Federal share).

We reviewed $19,403,313 (Federal share) of claims for family planning services and supplies
that did not contain approved primary diagnosis codes within the V25 series or approved
therapeutic classification codes. 4 We did not review the remaining $79,759,200 (Federal share)
because these claims contained the appropriate diagnosis codes or therapeutic classification
codes.

We did not review the overall internal control structure of the State agency or the Medicaid
program. Rather, we reviewed only the internal controls that pertained directly to our objective.



1
 Family Planning Only and Take Charge providers are required to comply with WAC § 388-502-0100. See
WAC § 388-532-520 and WAC §§ 388-532-730, 050, and 110.
2
    Health and Recovery Services Administration, Family Planning Provider Billing Instructions, pages B.6 and C.29.
3
    International Classification of Diseases, 9th Revision, Clinical Modification (ICD-9-CM).
4
    This amount did not include any claims for prescription drugs.


                                                            3
We performed our fieldwork at the Health and Recovery Services Administration’s office in
Olympia, Washington.

Methodology

To accomplish our objective, we:

   •   reviewed Federal and State laws, regulations, and guidance and the approved State plan
       and Take Charge demonstration project requirements;

   •   held discussions with CMS officials and gained an understanding of CMS guidance
       furnished to State agency officials concerning Medicaid family planning claims;

   •   held discussions with State agency officials to gain an understanding of State policies and
       procedures for claiming Federal reimbursement for family planning services and
       supplies;

   •   obtained family planning claim data from the State agency’s MMIS;

   •   reconciled family planning claim data to Form CMS-64;

   •   identified claims for services that did not have approved primary diagnosis codes in the
       V25 series;

   •   identified supplies that did not have approved therapeutic classification codes; and

   •   calculated the unallowable Federal reimbursement claimed by the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The State agency did not always claim Federal reimbursement at the 90-percent rate for family
planning services and supplies in accordance with Federal and State requirements. Specifically,
the State agency claimed $18,727,441 (Federal share) of medical services and supplies that were
not related to family planning. Contrary to State requirements, the claims for services did not
contain approved primary diagnosis codes, and the claims for supplies did not contain approved
therapeutic classification codes. By calculating the difference between what the State agency
claimed and what it should have claimed, we determined that the State agency was overpaid
$8,458,169 (Federal share).




                                                4
This overpayment occurred because the State agency’s MMIS controls did not properly
distinguish claims eligible for reimbursement at the 90-percent rate from claims eligible for
reimbursement at the regular FMAP rate. In July 2007, the State agency changed the MMIS
controls to properly identify these claims.

FEDERAL REQUIREMENTS

Pursuant to section 4270.B of the Manual, States are free to determine which family planning
services and supplies will be covered as long as they are sufficient in amount, duration, and
scope to reasonably achieve their purpose. However, the Manual states that only supplies and
services clearly furnished for family planning purposes may be claimed for Federal
reimbursement at the 90-percent rate.

STATE REQUIREMENTS

The State plan provides for family planning services and supplies for Medicaid-eligible
individuals of childbearing age without limitations.

For the Reproductive Health Services program, WAC § 388-532-120(1)(ii) states that for
covered services for women, the State agency covers per client per year “[o]ne comprehensive
family planning preventative medicine visit, billable by a Take Charge provider only.” Pursuant
to WAC § 388-532-120(2)(a), covered services for men include “[o]ffice visits where the
primary focus and diagnosis is contraceptive management and/or there is a medical concern.”
Covered services for both men and women also include over-the-counter contraceptives, drugs,
and supplies and sterilization procedures that meet the requirements of the WAC.

For the Family Planning Only and Take Charge programs, WAC §§ 388-532-550(1) and
388-532-780(1) follow Federal requirements and limit reimbursement to services that have a
primary focus and diagnosis of family planning and are medically necessary for beneficiaries to
safely, effectively, and successfully use chosen contraceptive methods. The State agency’s
Family Planning Provider Billing Instructions (pages B.2, B.5, C.27, and C.28) specifies that the
diagnosis codes must be within the V25 code series and provides a list of authorized
contraceptive management drugs. The ICD-9-CM defines the V25 diagnosis code series as
contraceptive management.

For the Reproductive Health Services program, State agency officials informed us that the
requirement to identify family planning services with a V25 diagnosis code or therapeutic
classification code also applies.

SERVICES AND SUPPLIES NOT RELATED TO FAMILY PLANNING

The State agency claimed $18,727,441 (Federal share) of medical services and supplies that were
not related to family planning. We identified claims that were billed with primary diagnosis




                                                5
codes or therapeutic classification codes that were not approved by the State agency as family
planning services and supplies. 5 The table below summarizes the improper claims.

                               Summary of Improper Claims
                                            Amount          Amount
                                            Claimed         Overpaid
                    Claim Category       (Federal Share) (Federal Share)
             Medical services                $17,992,506      $8,132,237
             Supplies                            734,935         325,932
                 Total                       $18,727,441      $8,458,169

Primary Diagnosis Codes Not Eligible for Reimbursement at the 90-Percent Rate

The State agency claimed $17,992,506 (Federal share) at the 90-percent rate for medical services
that were not related to family planning. We reviewed the claim data and identified claims with
primary diagnosis codes that were not in the V25 series and thus not eligible for reimbursement
at the 90-percent rate. Examples of these diagnosis codes were V20.1, health supervision of
infant or child; 250.00, diabetes mellitus; 724.2, lumbago; and 401.9, essential hypertension—
unspecified.

These claims were for both the Medicaid and Take Charge programs. The claims for Medicaid
beneficiaries were eligible for reimbursement at Washington State’s regular FMAP for the years
in which the claims were paid. We calculated that the State agency was overpaid $7,875,120 for
these claims. The claims for Take Charge beneficiaries were not eligible for Federal
reimbursement because Take Charge beneficiaries are eligible only for family planning services.
Therefore, we disallowed the entire Federal reimbursement for these claims. The State agency
was overpaid $257,117. In total, we calculated that the State agency was overpaid $8,132,237
for medical services not related to family planning.

Therapeutic Classification Codes Not Eligible for Reimbursement
at the 90-Percent Rate

The State agency claimed $734,935 (Federal share) at the 90-percent rate for supplies that were
not related to family planning services. We reviewed the claims for supplies and identified
claims with therapeutic classification codes that were not on the State agency’s list of authorized
contraceptives and thus not eligible for reimbursement at the 90-percent rate. Specifically, the
claims included two unapproved codes: X2A (needles and needleless devices) and X2B
(syringes and accessories).

The claims for supplies were eligible for reimbursement at Washington State’s regular FMAP for
the years in which the claims were paid. We calculated that the State agency was overpaid
$325,932 for these claims.


5
  Appendix A contains examples of primary diagnosis and therapeutic classification codes claimed that were not
related to family planning services and supplies.


                                                        6
CAUSE OF THE OVERPAYMENTS

The overpayments for services and supplies not related to family planning occurred because the
State agency’s MMIS controls did not properly distinguish claims eligible for reimbursement at
the 90-percent rate from claims eligible for reimbursement at the regular FMAP rate. For
example, the MMIS allowed a claim with an unapproved family planning diagnosis code, such as
724.2 for diabetes, to be reimbursed at the 90-percent rate if the claim had an approved family
planning procedure code (such as 99201 for an office visit). Additionally, the MMIS did not
properly limit reimbursement for supply claims to those with approved therapeutic classification
codes.

In July 2007, the State agency found that the MMIS edits did not deny reimbursement at the
90-percent rate for claims that did not qualify as family planning services and supplies. The
State agency corrected the MMIS edits, and we verified that they were working. However, the
State agency did not review claims reimbursed before July 2007.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $8,458,169 to the Federal Government and

   •   identify and refund any overpayments for family planning claims before October 1, 2005,
       that did not contain approved primary diagnosis or therapeutic classification codes
       identifying the claims as eligible for reimbursement at the 90-percent rate.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In its comments on our draft report, the State agency concurred with our findings and our first
recommendation. Regarding our second recommendation, the State agency said that because it
had implemented a new MMIS in May 2010, it was unable to review medical claims submitted
before December 2005 or pharmacy claims submitted before April 2006. The State agency’s
comments are included in their entirety as Appendix B.

The State agency should work with CMS to resolve the issue of overpayments for medical
claims submitted before December 2005 and pharmacy claims submitted before April 2006.
Even though the detailed information is no longer available, CMS may want to use alternative
methods, such as estimations, to determine the amount that the State agency should refund.




                                                7
APPENDIXES
       APPENDIX A: EXAMPLES OF UNAPPROVED PRIMARY
      DIAGNOSIS AND THERAPEUTIC CLASSIFICATION CODES


Unapproved Primary Diagnosis Codes

V20.1          Health Supervision of Infant or Child
250.00         Diabetes Mellitus
724.2          Lumbago
465.9          Acute Upper Respiratory Infections
635.92         Legally Induced Abortion Without Mention of Complication
401.1          Essential Hypertension—Benign
382.10         Unspecified Otitis Media—Ear Infection
401.9          Essential Hypertension—Unspecified
V58.3          Attention to Surgical Dressings
042            Human Immunodeficiency Virus (HIV) Diseases
625.9          Unspecified Symptom Associated With Female Genital Organs
801.75         Open Fracture at Base of Skull


Unapproved Therapeutic Classification Codes

X2A            Needles and Needleless Devices
X2B            Syringes and Accessories
APPENDIX B: DEPARTMENT OF SOCIAL AND HEALTH SERVICES COMMENTS 





                                               STATE OF WASHINGTON 

                    DEPARTMENT OF SOCIAL AND HEALTH SERVICES 

                                           Medication Purchasing Administration
                                             6268" Avenue, S.E. • P.D. Bat 45502
                                              Olympia, Washing/o/1 98504-5502

                                                       December 6, 2010



    Lori A. Ah lstrand
    Regional Inspector General for Audit Services
    Office of Inspector General
    Office of Audit Services, Region IX
    90 -7" Street, Suite 3-650
    San Francisco, California 94103


    Dear Ms. Ahlstrand:

    \Vo arc in receipt of your draft repOit entitled Review a/Family Plannin;: Services Claimed by Washington Stare during
    the Period October 1, 2005 through September 30, 2008.             .

    W. concur with the fmdiogs and WIll make the necessary adjushnents to the CMS 64 Report for the Quarter
    January I, 2011 through March 31, 2011. We will return $8,458,169 to the Federal Goverrunen!.

    The report also requests that we u ••• identify and refund any overpayments for fam ily p1anning c1aims before
    October 1,2005 that did not contain approved family planning diagnosi s or therHpeutic c1assification codes identifying
    the claims as eligibJe for reimbursement for the 90 percent rate." You may be aware that we implemented a Ilew MMIS
    system, ProviderOne, on May 9, 2010. Consequently, we are unable to review medical c1aims submitted prior to
    December 2005 or pharmacy claims prior to April 2006, as thal inronnation is no longer available. We can assure you
    that our new ProviderOne system is now paying family planning claims cocrcctly.

    While it was distressing for us to discover via the audit process that our .old system was not paying correctly. we
    appreciate the professional manner in Wl1ich the audit was conducted. The family planning staffspokc very highly of
    both of the auditors, Teri Kirkpatrick and Virginia Liley, who conducted the review .

                                                     . Sincerely,



                                                       4R~
                                                       lJoug POlter
                                                       Administrator
                                                       Medicaid Director
                                                       Health Care Authority



    cc: 	 Preston Cody, Director, DHS and BH, HCAIMPA
          Mo Considine, Program Manager, DHS, HCAIMPA
          Thuy Hua-ly, Director, DRF, HCAIMPA
          Cathie Ott, Assistant Director, DSM, HCAIMPA
          Manning Pellanda, Director, DESD, HCA/MPA
          Todd Slettvet, Office Chief, DHS, HCAIMPA
          Mory Wood, Office Chief, DESD, HCAIMP A
